HHS/OIG, Audit -"Review of Medicaid Drug Rebates at State Medicaid Agencies forthe State of Rhode Island,"(A-01-03-00001)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Drug Rebates at State Medicaid Agencies forthe State
of Rhode Island," (A-01-03-00001)
June 10, 2003
Complete
Text of Report is available in PDF format (404 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to verify the total
reported uncollected drug rebates for the State of Rhode Island as of June
30, 2002, and determine whether the State agency has established adequate internal
controls with regard to the reported drug rebates uncollected balance and disputed items.  We
found that quarterly reports could not be reconciled to State records that
resulted in a difference of $4.7 million for the total uncollected drug rebate amount, and
there were approximately $570,000 of uncollected disputed items for the period
January 1994 through December 2001 that had not been resolved in accordance
with Centers for Medicare and Medicaid Services (CMS) guidelines.  We
recommended that the State agency reconcile State records to the amount reported
to CMS, establish written procedures to recording drug rebate transactions,
and resolve disputed items.  The auditee concurred with our findings and
will take appropriate actions to implement our recommendations.